APPENDIX A

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1799
CARMENCITA MARIA PEDRO,
Appellant
v.
CITY FITNESS, LLC; KENNETH DAVIES, Personally and in Flis Professional
Capacity; CARL GEIGER, Personally and in His Professional Capacity;
STEPHANIE HICKS, Personally and in Her Professional Capacity; JEFF QUINN,
Personally and in His Professional Capacity ; KATHRYN BLESSINGTON, Personally
and in Her Professional Capacity and Bombay Yoga Company; RUBEN DIAZ,
Personally and in His Professional Capacity; EVIN FORD, Personally and in His
Professional Capacity; JANET HARRIS-FORD, Personally and in Her Professional
Capacity; GAIL KOTEL, Personally and in Her Professional Capacity;
KRISTINA SYMBULA, Personally and in Her Professional Capacity;
HARRISON TREEGOOB, Personally and in His Professional Capacity;
ANNE ROGERS; STEPHANIE STOYER; EDITA ZLATIC-STUCKEY;
MAXWELL STUCKEY; 1148 WHARTON STREET FITNESS, LLC; 400 WALNUT
STREET FITNESS, LLC, Any/All Other Affiliated Entities Doing Business as City
Fitness Philadelphia; FIT PERX, LLC; CITY FITNESS MANAGEMENT, INC.;
C. RICHARD HORROW, ESQUIRE, Personally and in His Professional Capacity;
MARIE HILFERTY, Personally and in Her Professional Capacity; 2101 SOUTH
STREET FITNESS, LLC; BOMBAY YOGA COMPANY
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2:15-cv-04964) District Judge: Honorable Joel H. Slomsky
Submitted Pursuant to Third Circuit LAR 34.1(a)
February 14, 2020
Before: KRAUSE, MATEY, and COWEN, Circuit Judges

(Opinion filed: February 20, 2020)
OPINION*
PER CURIAM
Carmencita Maria Pedro appeals pro se from the District Court’s March 30, 2018
order dismissing her civil action pursuant to Federal Rule of Civil Procedure 12(b)(6).
For the reasons that follow, we will affirm that decision in part, vacate it in part, and
remand for further proceedings.
I.
Pedro describes herself as “dark-skinned and of Puerto Rican ancestry.” (Second
Am. Compl. 2.) In August 2010, Philadelphia-based City Fitness hired her to serve as a
group exercise instructor at its 200 Spring Garden Street location (“the Spring Garden
Club”). When City Fitness opened a club at 2101 South Street (“the South Street Club”)
in January 2012, Pedro asked to teach classes there.2 Carl Geiger, who is City Fitness’s

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
i

Pedro’s 145-page second amended complaint is the operative pleading in this case.
Because this is an appeal from an order granting motions to dismiss under Rule 12(b)(6),
“we take the following factual background directly from [that operative pleading] and
accept as true all facts set forth therein, drawing all reasonable inferences from such
allegations in favor of the Appellant.” Fair Hous. Rights Ctr. in Se. Pa. v. Post Goldtex
GP, LLC. 823 F.3d 209, 212 (3d Cir. 2016).
2 City Fitness “operates under multiple affiliated entities.” (Second Am. Compl. 3.) The
2

managing partner, denied her request, stating, “[y]ou know, the demographic in that
neighborhood is very white-bred and I just don’t think you would fit in.” (Id. at 18
(emphasis omitted).) However, in June 2012, Deanna Santiago, who was City Fitness’s
group exercise manager, asked Pedro to serve as a substitute teacher for classes at the
South Street Club. Shortly thereafter, Santiago resigned from her position. In August
2012, Geiger filled that position by hiring Pedro.
Pedro’s duties as the group exercise manager included, inter alia, teaching classes.
Beginning in September 2012, she taught the “Silver Sneakers” class at the South Street
Club, earning $25 per class. But during a meeting on October 1, 2013, Geiger told her, “I
have decided to assign another [instructor to teach the Silver[]Sneakers class .. . because
the demographic is more white.” (Id. at 28 (emphasis omitted).) Geiger explained that
Pedro could continue teaching that class until he found a “suitable replacement.” (Id.
(emphasis omitted).) He also told her that she could continue teaching at the Spring
Garden Club because “[tjhere are more black people over there, so you fit in better
[there].” (Id (emphasis omitted).) Pedro objected, and when she started crying, Geiger
laughed at her. On October 29, 2013, she taught her last Silver Sneakers class at the
South Street Club. Thereafter, the class was taught by a white instructor.
On November 6, 2013, Geiger told Pedro that Jeff Quinn (City Fitness’s vice
president) “wants me to fire you because you’re black ... and hire a white manager.”

Spring Garden Club is operated by City Fitness, LLC, while the South Street Club is
operated by 2101 South Street Fitness, LLC.
3

(Id. at 44 (emphasis omitted).) Later that month, City Fitness received several written
complaints about Pedro from certain club members and group exercise instructors. Two
of those complaints were made by club member Edita Zlatic-Stuckey. Zlatic-Stuckey’s
first complaint stated that, during a yoga class, Pedro “picked on” her, used an
“aggressive tone,” and was “[ejxtremely unprofessional and condescending.” (Ex. to
Mot. to Dismiss, located at Dist. Ct. docket # 60-3, at 6.)3 Zlatic-Stuckey filed her
second complaint six days later, stating that, the night after filing her first complaint,
Pedro “ambushed my husband and [me] at the Whole Food[s] store trying to resolve the
issue in the middle of the store.” (Id. at 8.) The second complaint expressed ZlaticStuckey’s “concem[] that [Pedro] is one of the managers reading this form[] and stalking
us in public.” (Id.)
On December 10, 2013, Geiger told Pedro by phone that he would be removing
her from the group-exercise-manager position and reducing her teaching workload to two
classes per week. In support of this decision, Geiger said,
[r]emember when you first asked me about teaching on South
Street after the club opened I told you I didn’t think you’d fit
in because the neighborhood is very white-bred, well
Carmencita it’s just not working out. You are always late to
all of your classes, I have the members complaining that you
are being disrespectful to them in yoga and accosting and
stalking them in Whole Foods Market. []I’m moving City

3 «

[W]e may consider documents integral to or explicitly referred to in the [plaintiffs
pleading] without turning a motion to dismiss into a motion for summary judgment.” In
re Lipitor Antitrust Litig., 868 F.3d 231, 249 (3d Cir. 2017) (internal quotation marks
omitted).
4

II.
We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291, and we
exercise de novo review over the District Court’s Rule 12(b)(6) dismissal. See Estate of
Roman v. City of Newark. 914 F.3d 789, 795 (3d Cir. 2019). “When conducting our
review, we accept all factual allegations as true [and] construe the [operative pleading] in
the light most favorable to the plaintiff.” Id (first alteration in original) (internal
quotation marks omitted). “To survive dismissal [under Rule 12(b)(6)], a complaint must
contain sufficient factual matter, accepted as true, to state a claim to relief that is
plausible on its face.” Wisniewski v. Fisher. 857 F.3d 152, 155 (3d Cir. 2017) (internal
quotation marks omitted). “[PJlausible does not mean probable,” and “we ask only if we
have enough fact[s] to raise a reasonable expectation that discover}' will reveal evidence
of each element.” United States ex rel. Bookwalter v. UPMC. No. 18-1693, — F.3d -—,
2019 WL 7019394, at *3 (3d Cir. Dec. 20, 2019) (precedential) (second alteration in
original) (internal quotation marks omitted).
We begin with Pedro’s claims for discrimination and retaliation under Title VII of
the Civil Rights Act of 1964.5 The District Court evaluated these claims by applying the

5

Pedro also alleged discrimination and retaliation in violation of 42 U.S.C. § 1981 and
the Pennsylvania Human Relations Act (“PHRA”), both of which are analyzed under the
same standard as Title VII claims. See Castleberry v. STI Grp.. 863 F.3d 259, 263 (3d
Cir. 2017) (comparing Title VII and § 1981 claims); Goosbv v. Johnson & Johnson Med.,
Inc.. 228 F.3d 313,317 n.3 (3d Cir. 2000) (comparing Title VII and PHRA claims). As
for her claims under the Age Discrimination in Employment Act of 1967 (“ADEA”),
those claims were properly dismissed because she did not allege facts demonstrating that
she has a plausible claim under that statute. Although Geiger allegedly told Pedro that he
6

burden-shifting framework set forth in McDonnell Douglas Corp. v. Green. 411 U.S. 792
(1973), the first step of which requires determining whether the plaintiff has made a
prima facie showing of discrimination and/or retaliation. See Jones v. Se. Pa. Transp.
Auth., 796 F.3d 323, 325-26 (3d Cir. 2015). But “[a] prima facie case is an evidentiary
standard, not a pleading requirement, and hence is not a proper measure of whether a
complaint fails to state a claim [under Rule 12(b)(6)].” Connelly v. Lane Constr. Corp..
809 F.3d 780, 789 (3d Cir. 2016) (internal quotation marks and citation omitted). Again,
the proper question to ask at the Rule 12(b)(6) stage is simply whether the plaintiffs
pleading has alleged enough facts to “raise a reasonable expectation that discovery will
reveal evidence of each element.” Bookwalter, 2019 WL 7019394, at *3 (internal
quotation marks omitted).
Here, Pedro has alleged facts indicating that Geiger stripped her of her role
teaching the Silver Sneakers class at the South Street Club because of the color of her
skin. Geiger then told Pedro that Quinn wanted to fire her for that same reason. When
Geiger subsequently demoted her, he made remarks that might lead one to infer that the

was seeking “younger energy,” she alleges that her successor for the group-exercisemanager position was actually older than her, and that some of the instructors who took
over her classes were older than her, too, See Potence v. Hazleton Area Sch. Dist., 357
F.3d 366, 370 (3d Cir. 2004) (explaining that a plaintiff seeking relief under the ADEA
must demonstrate, inter alia, that “her replacement was sufficiently younger to permit a
reasonable inference of age discrimination” (emphasis added)). Finally, to the extent that
Pedro sought relief under 42 U.S.C. § 1981a, we note that this statute does not create a
freestanding cause of action; rather, it merely adds to the remedies available to a Title VII
plaintiff. See, e.g., Huckabav v. Moore. 142 F.3d 233, 241 (5th Cir. 1998), overruled on
other grounds by Nat’l R.R. Passenger Corp. v. Morgan, 536 U.S. 101 (2002).
7

color of her skin played a role in that decision, too. And Geiger fired her only hours after
she told him that she had lodged a charge of discrimination with the EEOC.6 We
conclude that these alleged facts are enough to state claims for discrimination and
retaliation. See Connelly, 809 F.3d at 787-91. Accordingly, we will vacate the District
Court’s dismissal of Pedro’s discrimination and retaliation claims, with the following
qualifications. To the extent that Pedro seeks relief under Title VII, her claims are
reinstated against City Fitness (i.e., City Fitness, LLC, and 2101 South Street Fitness,
LLC, see supra note 2) only.7 To the extent that she seeks relief under the PHRA, her
claims are reinstated against City Fitness, LLC, 2101 South Street Fitness, LLC, and
Geiger only.8 Lastly, to the extent that she seeks relief under § 1981, her claims are

6 The District Court determined that Pedro could not show that her termination on
December 16, 2013, was the product of retaliation because she did not actually file her
discrimination claim with the EEOC until December 19, 2013. We disagree. The letter
that Pedro submitted to the EEOC raising her discrimination claim is dated December 16,
2013, and it appears that it was submitted to the EEOC via mail. (See Ex. to Mot. to
Dismiss, located at Dist. Ct. docket # 60-3, at 21.) That is consistent with Pedro’s
allegations that she submitted her EEOC claim on December 16 and then notified Geiger
and others via email later that day. Although the EEOC may not have received Pedro’s
letter until December 19, that does not prevent her from showing retaliation.
7 For the reasons explained by the District Court, Pedro cannot state a claim for relief
under Title VII against the remaining defendants. (See Dist. Ct. Mem. entered March 30,
2018, at 12, 15-17.)
8

For the reasons explained by the District Court, Pedro cannot state a claim for relief
under the PHRA against the remaining defendants. (See Dist. Ct. Mem. entered March
30, 2018, at 12, 15-19.)
8

reinstated against City Fitness, LLC, 2101 South Street Fitness, LLC, Geiger, and Quinn
only.9
We now turn to the remaining claims included in Pedro’s second amended
complaint. Her claims for “wrongful demotion” and “wrongful termination,” which are
set forth in Count IV, are duplicative of her discrimination and retaliation claims.10
Accordingly, there is no need for us to vacate the dismissal of Count IV. The rest of
Pedro’s claims concern a wide variety of issues, including, inter alia, an alleged violation
of the Employee Retirement Income Security Act of 1974 and allegations of unequal pay,
defamation, and tortious interference with business relationships. Each of these claims
(1) has been forfeited based on Pedro’s failure to raise it in her 36-page opening brief, see
Bama v. Bd. of Sch. Dirs. of Panther Valiev Sch. Dist.. 877 F.3d 136, 145-46 (3d Cir.

9 If directors, officers, and/or employees “are personally involved in the discrimination
against the [plaintiff], and if they intentionally caused the [employer] to infringe on [the
plaintiffs] Section 1981 rights, or if they authorized, directed, or participated in the
alleged discriminatory conduct, they may be held liable [under § 1981].” Al-Khazraji v.
Saint Francis Coll.. 784 F.2d 505, 518 (3d Cir. 1986). We conclude that Pedro has
alleged enough facts to support a plausible § 1981 claim against Geiger and Quinn, but
not as to the remaining individuals who are named as defendants. As for the entities that
are named as defendants, we agree with the District Court that Pedro cannot proceed
against any of them other than City Fitness, LLC, and 2101 South Street Fitness, LLC.
(See Dist. Ct. Mem. entered March 30, 2018, at 12, 15-16.)
10 Count IV alleges discrimination and retaliation, and it relies on the same statutes that
underlie Pedro’s aforementioned discrimination and retaliation claims.
9

2017),11 and/or (2) was properly dismissed under Rule 12(b)(6) for substantially the
reasons provided by the District Court.
In light of the above, we will (1) vacate the District Court’s dismissal of Pedro’s
discrimination and retaliation claims to the extent delineated above, (2) affirm the
remainder of the District Court’s March 30, 2018 dismissal order,12 and (3) remand this
case to the District Court for further proceedings.13

11 To the extent that Pedro’s reply brief seeks permission to file supplemental briefing
addressing issues that were not addressed in her opening brief, that request is denied. See
Bama. 877 F.3d at 147 (“Because of the important interests underlying the preservation
doctrine, we will not reach a forfeited issue in civil cases absent truly exceptional
circumstances.” (internal quotation marks omitted)).
12 In reaching this result, we have carefully considered each of the various arguments that
Pedro has preserved on appeal, some of which are, at best, ancillary to the District
Court’s motion-to-dismiss analysis. To the extent that Pedro challenges any District
Court orders other than its March 30, 2018 dismissal, we see no reason to disturb any
such orders.
13 The Honorable Joel H. Slomsky has presided over the District Court proceedings in
this case. On appeal, Pedro takes issue with Judge Slomsky’s handling of the case,
alleging, inter alia, that he is not “trustworthy,” is biased against her, and has “aided and
abetted” “fraudulent activities” committed by the appellees’ attorneys. We find no merit
to these allegations, and we see no reason for this case to be reassigned to a different
district judge on remand.
10

Case: 18-1799

Document: 94-1

Page: 1

Date Filed: 02/20/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1799
CARMENCITA MARIA PEDRO,
Appellant
v.

CITY FITNESS, LLC; KENNETH DAVIES, Personally and in His Professional
Capacity; CARL GEIGER, Personally and in His Professional Capacity;
STEPHANIE HICKS, Personally and in Her Professional Capacity; JEFF QUINN,
Personally and in His Professional Capacity; KATHRYN BLESSINGTON, Personally
and in Her Professional Capacity and Bombay Yoga Company; RUBEN DIAZ,
Personally and in His Professional Capacity; EVIN FORD, Personally and in His
Professional Capacity; JANET HARRIS-FORD, Personally and in Her Professional
Capacity; GAIL KOTEL, Personally and in Her Professional Capacity;
KRISTINA SYMBULA, Personally and in Her Professional Capacity;
HARRISON TREEGOOB, Personally and in His Professional Capacity;
ANNE ROGERS; STEPHANIE STOYER; EDITA ZLATIC-STUCKEY;
MAXWELL STUCKEY; 1148 WHARTON STREET FITNESS, LLC; 400 WALNUT
STREET FITNESS, LLC, Any/All Other Affiliated Entities Doing Business as City
Fitness Philadelphia; FIT PERX, LLC; CITY FITNESS MANAGEMENT, INC.;
C. RICHARD HORROW, ESQUIRE, Personally and in His Professional Capacity;
MARIE HILFERTY, Personally and in Her Professional Capacity; 2101 SOUTH
STREET FITNESS, LLC; BOMBAY YOGA COMPANY
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2:15-cv-04964)
District Judge: Honorable Joel H. Slomsky
Submitted Pursuant to Third Circuit LAR 34.1(a)
February 14, 2020
Before: KRAUSE, MATEY, and COWEN, Circuit Judges

Case: 18-1799

Document: 94-1

Page: 2

Date Filed: 02/20/2020

JUDGMENT
This cause came to be considered on the record from the United States District Court
for the Eastern District of Pennsylvania and was submitted pursuant to Third Circuit LAR
34.1(a) on February 14, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the order of the District Court
entered March 30,2018, is affirmed in part and vacated in part, and the matter is remanded
for further proceedings. Costs will not be taxed. All of the above in accordance with the
opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: February 20, 2020

Case: 18-1799

Document: 94-2

Page: 1

Date Filed: 02/20/2020

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT
CLERK

United States Court of Appeals
FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: www.ca3.uscourts.gov

February 20, 2020

Mark S. Danek
1255 Drummers Lane
Suite 105
Wayne, PA 19087
Rufus A. Jennings
Deasey Mahoney & Valentini
1601 Market Street
Suite 3400
Philadelphia, PA 19103
Carmencita Maria Pedro
P.O. Box 15616
541 North Paxon Street
Philadelphia, PA 19131

RE: Carmencita Maria Pedro v. City Fitness LLC, et al
Case Number: 18-1799
District Court Case Number: 2-15-cv-04964

ENTRY OF JUDGMENT
Today, February 20, 2020 the Court entered its judgment in the above-captioned matter
pursuant to Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.

Case: 18-1799

Document: 94-2

Page: 2

Date Filed: 02/20/2020

Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
A party who is entitled to costs pursuant to Fed.R.App.P. 39 must file an itemized and verified
bill of costs within 14 days from the entry of judgment. The bill of costs must be submitted on
the proper form which is available on the court's website.
A mandate will be issued at the appropriate time in accordance with the Fed. R. App. P. 41.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.

Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s! Aina, Legal Assistant
Direct Dial: 267-299-4957

APPENDIX B

Case: 18-1799

Document: 96

Page: 1

Date Filed: 05/12/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1799

CARMENCITA MARIA PEDRO,
Appellant
v.

CITY FITNESS, LLC; KENNETH DAVIES, Personally and in His Professional
Capacity; CARL. GEIGER, Personally and in His Professional Capacity;
STEPHANIE HICKS, Personally and in Her Professional Capacity; JEFF QUINN,
Personally and in His Professional Capacity; KATHRYN BLESSINGTON, Personally
and in Her Professional Capacity and Bombay Yoga Company; RUBEN DIAZ,
Personally and in His Professional Capacity; EVIN FORD, Personally and in His
Professional Capacity; JANET HARRIS-FORD, Personally and in Her Professional
Capacity; GAIL KOTEL, Personally and in Her Professional Capacity;
KRISTINA SYMBULA, Personally and in Her Professional Capacity;
HARRISON TREEGOOB, Personally and in His Professional Capacity;
ANNE ROGERS; STEPHANIE STOYER; EDITA ZLATIC-STUCKEY;
MAXWELL STUCKEY; 1148 WHARTON STREET FITNESS, LLC; 400 WALNUT
STREET FITNESS, LLC, Any/All Other Affiliated Entities Doing Business as City
Fitness Philadelphia; FIT PERX, LLC; CITY FITNESS MANAGEMENT, INC.;
C. RICHARD HORROW, ESQUIRE, Personally and in His Professional Capacity;
MARIE HILFERTY, Personally and in Her Professional Capacity; 2101 SOUTH
STREET FITNESS, LLC; BOMBAY YOGA COMPANY

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-15-cv-04964)
District Judge: Honorable Joel H. Slomsky

SUR PETITION FOR REHEARING

Case: 18-1799

Document: 96

Page: 2

Date Filed: 05/12/2020

BEFORE: SMITH, Chief Judge, and MCKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and CO WEN*, Circuit Judges

The petition for rehearing filed by appellant, Carmencita Maria Pedro, in the abovecaptioned matter having been submitted to the judges who participated in the decision of
this Court and to all other available circuit judges of the Court in regular active service,
and no judge who concurred in the decision having asked for rehearing, and a majority of
the circuit judges of the Court in regular active service who are not disqualified not having
voted for rehearing by the Court en banc, the petition for rehearing by the panel and the
Court en banc is DENIED.
BY THE COURT,
s/ Paul B. Matey
Circuit Judge
Dated: May 12, 2020
Lmr/cc: Carmencita Maria Pedro
Rufus A. Jennings
Mark S. Danek

* Judge Cowen’s vote is limited to panel rehearing only.
2

i.

APPENDIX C

/

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 1 of 39

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CARMENCITA MARIA PEDRO,
Plaintiff,

CIVIL ACTION
NO. 15-04964

v.

\

CITY FITNESS, LLC, et al.,
Defendants.
OPINION
Slomsky, J.
I.

March 30,2018

INTRODUCTION
Plaintiff Carmencita Maria Pedro, proceeding pro se, brings this suit against Defendants

City Fitness, LLC; 2101 South Street Fitness, LLC; 1148 Wharton Street Fitness, LLC; 400
Walnut Street Fitness, LLC; Fit Perx, LLC; City Fitness Management, Inc.; Bombay Yoga
Company; Kenneth Davies; Carl Geiger; Stephanie Hicks; Jeff Quinn; C. Richard Horrow,
__ Esquire; Kathryn Blessington; Ruben Diaz; Kristen Symballa; Evin Ford; Janet Harris-Ford; Gail
Kotel; Marie Hilferty; Harrison Treegoob; Edita Zlatic-Stuckey; Maxwell Stuckey; Stephanie
Stoyer; and Anne Rogers.1 (Doc. No. 58.) She alleges wrongdoing committed against her
during her association with City Fitness. (Id.)

l

City Fitness, LLC operates a fitness club at 200 Spring Garden Street, Philadelphia,
Pennsylvania. (Doc. No. 58 at 4.) 2101 South Street Fitness, LLC operates a fitness club at
2101 South Street, Philadelphia, Pennsylvania. (Id, at 4-5.) 1148 Wharton Street, LLC
opened a fitness club at 1148 Wharton Street, Philadelphia, Pennsylvania. (Id, at 5.) 400
Walnut Street, LLC opened a fitness club at 400 Walnut Street, Philadelphia, Pennsylvania.
(Id.) Fit Perx, LLC and City Fitness Management, Inc. are affiliated entities of City Fitness.
(Id.) Bombay Yoga Company is a yoga company owned by Kathryn Blessington, which
“opened for business” in “December 2014” at 1914 South Street, Philadelphia, Pennsylvania.
(Id. at 94 f 702; id, at 93 700.) Kenneth Davies and Carl Geiger are two owners of these
clubs. (Id at 5-6.) Geiger also serves as a fitness instructor. (Id, at 6.) Stephanie Hicks, an

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 2 of 39

In Count I of seven counts in the Second Amended Complaint (SAC), Plaintiff alleges
violations of the Equal Pay Act; Fair Labor Standards Act (FLSA); Title VII of the Civil Rights
Act of 1964 (“Title VII”); 42 U.S.C. § 1981; the Pennsylvania Equal Pay Law; and the
Pennsylvania Human Relations Act (PHRA) against City Fitness, Kenneth Davies, Carl Geiger,
Stephanie Hicks and Jeff Quinn. (Id. at 126-27.)
In Count II, Plaintiff alleges Discrimination, Harassment and Retaliation under the Age
Discrimination in Employment Act of 1967 (“ADEA”); Title VII; 42 U.S.C. § 1981; and the
PHRA against all Defendants. (Id at 128-31.)
In Count III, Plaintiff alleges Misclassification as an Independent Contractor under the
Employment Retirement Income Security Act; and violations of the FLSA; Title VII; 42 U.S.C.
§ 1981; the Pennsylvania Minimum Wage Act; the Pennsylvania Workers’ Compensation Act;
and the Pennsylvania Wage Payment and Collection Law against City Fitness, Kenneth Davies,
Stephanie Hicks, Jeff Quinn and C. Richard Horrow, Esquire. (Id at 131-33.)
In Count IV, Plaintiff alleges Wrongful Demotion and Wrongful Termination under the
ADEA; and violations of Title VII; 42 U.S.C. § 1981; and the PHRA against City Fitness;
Kenneth Davies; Carl Geiger; Stephanie Hicks, Jeff Quinn; C. Richard Horrow, Esquire;
African American woman, is employed by City Fitness as the Operations and Finance
Manager. (Id.) Jeff Quinn is a Vice President of City Fitness and a former supervisor of
Plaintiff. (Id) C. Richard Horrow, Esquire, “is the tax and business attorney” for City
Fitness. (Id.) Kathryn Blessington was hired by Plaintiff in her capacity as Group Exercise
Manager to work as a yoga instructor. (Id. at 88 Iff 655-656.) Ruben Diaz is a Group
Exercise Instructor at City Fitness. (Id at 65 f 444.) Kristen Symballa was auditioned by
Plaintiff for a position as a yoga instructor. (Id. at 95 f 714.) Evin Ford and Janet Harris-Ford
are Group Exercise Instructors at City Fitness. (Id at 79 f 568.) Gail Kotel is a Group
Exercise Instructor at City Fitness. (Id. at 71 f 499.) Marie Hilferty was hired as the Group
Exercise Manager to replace Plaintiff. (Id at 7.) Harrison Treegoob is the Assistant General
Manager of the fitness club at 2101 South Street. (Id. at 6.) Edita Zlatic-Stuckey and
Maxwell Stuckey are “paid members[]” of the fitness club at 2101 South Street. And
Stephanie Stoyer and Anne Rogers are “paid memberfs]” of City Fitness. (Id at 101 f 772;
id at 116 f 894.)
2

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 3 of 39

Harrison Treegoob; Marie Hilferty; Ruben Diaz; Gail Kotel; Janet Harris-Ford; Evin Ford;
Kathryn Blessington; Kristen Symballa; Stephanie Stoyer; Edita Zlatic-Stuckey; Maxwell
Stuckey; and Anne Rogers. (Id. at 133-36.)
In Count V, Plaintiff alleges Post-Employment Retaliation and Tortious Interference with
Business Relationships against City Fitness; Kenneth Davies; Carl Geiger; Stephanie Hicks; Jeff
Quinn; C. Richard Horrow, Esquire; Harrison Treegoob; Marie Hilferty; Ruben Diaz; Gail Kotel;
Janet Harris-Ford; Evin Ford; Kathryn Blessington; Kristen Symballa; Stephanie Stoyer; Edita
Zlatic-Stuckey; Maxwell Stuckey; and Anne Rogers. (Id at 136-39.)
In Count VI, Plaintiff alleges Defamation and Tortious Interference with Business
Relationships against City Fitness; Kenneth Davies; Carl Geiger; Stephanie Hicks; Jeff Quinn;
C. Richard Horrow; Harrison Treegoob; Marie Hilferty; Ruben Diaz; Gail Kotel; Janet HarrisFord; Evin Ford; Kathryn Blessington; Kristen Symballa; Stephanie Stoyer; Edita ZlaticStuckey; Maxwell Stuckey; and Anne Rogers. (Id at 140-43.)
Finally, in Count VII, Plaintiff alleges Unlawful Publication of Confidential
Compensation records against City Fitness; Kenneth Davies; Carl Geiger; Stephanie Hicks; Jeff
Quinn; C. Richard Horrow; Harrison Treegoob; Marie Hilferty; Ruben Diaz; Gail Kotel; Janet
Harris-Ford; Evin Ford; Kathryn Blessington; Kristen Symballa; Stephanie Stoyer; Edita ZlaticStuckey; Maxwell Stuckey; and Anne Rogers. (Id at 143-47.)
Defendants have filed three Motions to Dismiss the SAC in its entirety. (Doc. Nos. 6061, 81.) The Motions are ripe for disposition.2

2 In reaching a decision, the Court has considered the SAC (Doc. No. 58), Motions to Dismiss
the SAC (Doc. Nos. 60-61, 81), Plaintiff’s Response in Opposition (Doc. Nos. 64-65) and
Defendants’ Reply (Doc. No. 68). Plaintiff did not file any response to one Motion to
Dismiss. (Doc. No. 81.)

3

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 4 of 39

II.

BACKGROUND3
In August 2010, City Fitness’s 200 Spring Garden Street fitness club hired Plaintiff

Carmencita Maria Pedro, a woman of Puerto Rican ancestry, as a Group Exercise Instructor.
(Doc. No. 58 at 13 ]j 4.) Plaintiff was hired as an independent contractor, and signed an
agreement acknowledging that status. (Id.

6-7; Doc. No. 60, Ex. B.)

Beginning on November 1, 2010, Plaintiff taught the “Silver Sneakers” class at 200
Spring Garden Street. (Doc. No. 58 at 16 ^ 32.) In January 2012, City Fitness had opened a
fitness club at 2101 South Street. At some point, Plaintiff made a request to teach yoga classes
there. (Id at 19 ^ 61-63.) Defendant Geiger denied her request, allegedly stating, “[y]ou know,
the demographic in that neighborhood is very white-bred and I just don’t think you would fit in.”
(Id.

64-65.) Nevertheless, by June 2012, Plaintiff began teaching classes at the South Street

location. (Id. at 20 ^ 71.) In August 2012, Defendant Geiger hired Plaintiff as the Group
Exercise Manager. (Id at 21 f 91.) Plaintiff earned an extra $150 per pay period for this
position. (Id. at 22 f 93; Doc. No. 60, Ex. C.)
On May 1, 2013, Plaintiff allegedly met with Defendants Hicks and Geiger regarding her
status as an independent contractor. (Doc. No. 58 at 39 1flf 229-233.) No change in her status
occurred. (Id. f 237.)
From November 1, 2010 until December 31, 2010, Plaintiff was paid $30 for teaching
each Silver Sneakers class. (Id at 17 f 39.) On January 1, 2011, the pay rate for class instructors
3 When analyzing the sufficiency of a pro se complaint, courts in the Third Circuit must
liberally construe the pleading. Higgins v. Beyer. 293 F.3d 683, 688 (3d Cir. 2002). With the
exception of certain allegations belied by evidence contained in other documents that this
Court may consider, the facts are taken from the SAC and are accepted as true for purposes of
deciding the Motions to Dismiss. See Pryor v. NCAA, 288 F.3d 548, 560 (3d Cir. 2002)
(explaining that if documents referred to in a complaint are attached to a defendant’s motion
to dismiss, they are considered part of the pleadings and therefore may be considered by the
Court).
4

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 5 of 39

was reduced to $25 a class. (Id at 17-18

47-49.) George Goodritz, a Jewish male, was

unhappy with the pay decrease and resigned from his position with City Fitness. (Id at 18 fK 5455.) City Fitness replaced Goodritz with Johnathan Sneed, as African-American male over the
age of 50. (Id

56-57.)

On October 1, 2013, after Plaintiff had taught classes at the South Street location for
more than a year, Plaintiff was allegedly told by Defendant Geiger that she would no longer
teach the Silver Sneakers class at the South Street location “because the demographic [there] is
more white.” (Id at 28 f 143.) Defendant Geiger told Plaintiff she could continue teaching the
Silver Sneakers class until he could find a “suitable replacement.” (Id. at 291145.) On or about
October 2, 2013, Goodritz was rehired to teach the Silver Sneakers class at the South Street
location for $35 a class. (Id. f 151; id at 31 f 159.) The pay rate for other instructors remained
at $25 a class. (Id. at 17 | 48.) A month after Plaintiff was terminated for reasons discussed
infra. City Fitness implemented a new, seniority-based pay structure for all employees. (Id. at 56
f 375.)

Under the new pay structure, the most senior yoga teachers and group exercise

instructors were paid a fixed rate of $35 a class. (Id at 57 ][ 377.)
On December 10, 2013, Plaintiff was informed that her job responsibilities were being
reduced because of complaints received from club members and other instructors. (Id at 47 If
300; jd. at 60 f 409.) Specifically, the following complaints were submitted in writing:
On November 13, 2013, Edita Zlatic-Stuckey and Maxwell Stuckey, named Defendants,
complained,
First time taking Fusion class; my husband signed us up for the hardcore class that
took place in yoga studio. Fusion-yoga part instructor walked in the studio and
picked on me for having shoes on. I tried to apologize that I wasn’t aware what
was going on since it was my first time but she dismissed me. Extremely
unprofessional and condescending throughout the class. Aggressive tone, not

5

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 6 of 39

explaining sequences, had to leave class in the middle. Considering canceling my
membership.
(Doc. No. 60, Ex. D.)
On November 19, 2013, Edita Zlatic-Stuckey made another complaint:
The night after I wrote my last form[, Carmencita] ambushed my husband and I at
the Whole Food Store trying to resolve the issue in the middle of the store. She
told us that it was our fault for signing up for the class without] knowing what
the format of the class is and that the class is not designed to be welcoming. I’m
concerned that she is one of the managers reading this form[] and stalking us in
public. If this is not resolved I will have to cancel my membership.
(Id. at Ex. E.)
On November 20, 2013, Kristen Symballa, a named Defendant, wrote: “Carl [Geiger], I
have some issues/concems surrounding yoga and specifically a conflict with Carmencita. Please
call me. Me as well as other members have been complaining and are concerned.” (Id at Ex. F.)
She subsequently complained,
Carmencita has a yoga class scheduled after a class I was subbing for, for Metro
Kids. We were finishing up and were running actually ahead of the scheduled
time. Carmencita interrupted my class to “set up” for Power Yoga. I told
Carmencita we would be done in 5 min[utes]. She waited at the door with her
arms crossed. I looked over and she said, “OK! Like now!” in a loud voice. It
was extremely rude and unnecessary. This is just one issue that I had w[ith]
Carmencita. She also was a no show for 2 of my yoga tryouts, and texted me at
12 a[m], saying I was supposed to sub a class and was a no show. I was never on
the sub list and would not have agreed because I did not work in Philadelphia on
that scheduled day.
(Id. at Ex. G.)
On November 21,2013, Anne Rogers, a named Defendant, complained,
I took Carmencita’s class [at] 6 on the 21st. I have been spinning for years [and]
was incredibly disappointed with the way the instructor teaches. She often arrives
late and unprepared for class. There are long pauses between the songs while she
scrolls through her list for the next song to use. When members have complained
to her about the class, rather than listening, she becomes defensive [and] hostile,
excusing her poor effort [and] lack of preparation as a different style of teaching,
which is a load of [expletive].
6

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 7 of 39

(Id at Ex. H.)
Janet Ford, another named Defendant, complained,
My major problem is that she is very rude and lacks human understanding. She
talks to people like they are bad behaving children. I will have to leave my class
here at City Fitness because I can’t bear up under such VERBAL ABUSE. If you
get rid of her, let me know. I will gladly come back to teach my class.
(Id. at Ex. I.)
In response to her teaching responsibilities being reduced, Plaintiff “objected to and
opposed the demotion.” (Doc. No. 58 at 53 f 352.) She was insubordinate and refused to accept
the change. (Doc. No. 60 at 35.) On December 16, 2013, City Fitness terminated Plaintiff. (Id
f 356.) On December 19, 2013, Plaintiff filed a Charge of Discrimination with the EEOC. (Id.
354; Doc. No. 60, Ex. J.) The only parties named as Respondents in that Charge were City
Fitness, LLC and South Street Fitness, LLC. (Doc. No. 60, Ex. J.) Although the Charge of
Discrimination is dated December 19, 2013, the SAC states that on December 16, 2013, the date
Plaintiff was terminated, she sent an e-mail to Davies, Geiger, Hicks and Quinn informing them
that she “filed” a Charge of Discrimination with the EEOC. (Doc. No. 58 at 53 ^ 355.)
On December 23,2013, Plaintiff filed a Complaint against Defendants City Fitness, LLC;
South Street Fitness, LLC; 2101 South Street Fitness, LLC; Kenneth Davies; Carl Geiger;
Stephanie Hicks; and Jeff Quinn. Pedro v. City Fitness (E.D. Pa. Dec. 23, 2013) (2:13-cv-07566JHS), ECF No. 1. On February 10, 2014, the Honorable William H. Yohn, Jr., to whom this case
was originally assigned, entered an Order requiring Plaintiff to file an Amended Complaint. Id
at ECF No. 2.4 When Plaintiff failed to comply with that Order, on June 3, 2014 Judge Yohn

4 This was case assigned to Judge Joel Slomsky on May 2, 2016. Pedro v. City Fitness (E.D.
Pa. Dec. 23, 2013) (2:13-cv-07566-JHS), ECF No. 8.
7

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 8 of 39

entered an Order dismissing Plaintiff’s claims without prejudice for failure to prosecute. Id. at
ECF No. 6.
On March 3, 2015, Plaintiff filed a Motion for Leave to Proceed In Forma Pauperis under
the current docket number. (Doc. No. 1.) That motion was granted and the Complaint was filed
on September 14, 2015. (Doc. Nos. 2-3.) On March 8, 2016, the Court granted Plaintiff an
extension until April 7, 2016 to file an Amended Complaint. (Doc. No. 7.) On April 11, 2016,
the Court granted Plaintiff another extension of time to file an Amended Complaint. (Doc. No.
10.) That Order provided that Plaintiff had until April 30, 2016 to file the Amended Complaint
and that no further extensions would be granted. (Id.) On May 2, 2016, after failing to comply
with the Court’s April 11, 2016 Order, Plaintiff requested another extension of time to file an
Amended Complaint. (Doc. No. 12.) On May 17, 2016, the Court granted Plaintiff another
extension of time to file an Amended Complaint. (Doc. No. 13.)
On May 31, 2016, Plaintiff filed the Amended Complaint. (Doc. No. 14.) On July 25,
2016, Defendants filed Motions to Dismiss Plaintiff’s Amended Complaint Pursuant to Rule
12(b)(6) for failure to state a claim. (Doc. Nos. 21, 23.) A hearing on the Motions was held on
August 26, 2016. (Doc. No. 30.) On September 1, 2016, the Court entered an Order permitting
Plaintiff to file a motion to strike documents sourced from her unemployment compensation
records. (Doc. No. 31.) Plaintiff filed that motion on October 4, 2016 (Doc. No. 33), and the
Court denied it by Order dated February 7, 2017 (Doc. No. 40). Plaintiff filed an appeal of that
Order to the Third Circuit Court of Appeals (Doc. No. 47) and this Court placed this case in
suspense pending the outcome of the appeal (Doc. No. 48).
On July 10, 2017, the Court of Appeals dismissed Plaintiff’s appeal for lack of
jurisdiction. (Doc. No. 53.) This Court then issued an Order removing the matter from suspense

8

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 9 of 39

and granting Plaintiff leave to file a SAC as requested by Plaintiff (Doc. No. 55), which she filed
on August 9, 2017 (Doc. No. 58).

By Order dated August 10, 2017, this Court denied

Defendants’ initial Motions to Dismiss the Amended Complaint without prejudice as moot.
(Doc. No. 59.) On August 23, 2017, Defendants filed Motions to Dismiss the SAC Pursuant to
Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim. (Doc. Nos. 60-61.) On
October 2, 2017, Plaintiff filed a Response in Opposition. (Doc. Nos. 64-65.) On October 16,
2017, Defendants filed a Reply. (Doc. No. 68.) On March 13, 2018, an attorney entered his
appearance on behalf of individual Defendants Edita Zlatic-Stuckey and Maxwell Stuckey, and
filed a Motion to Dismiss on that same date. (Doc. No. 81.) Plaintiff has not filed a response to
this Motion.
III.

STANDARD OF REVIEW
Federal Rule of Civil Procedure 8(a)(2) requires a pleading to contain a “short and plain

statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
Although this standard “does not require ‘detailed factual allegations,’ ... it demands more than
an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal. 556 U.S.
662, 678 (2009) (quoting Bell Atl. Corn, v. Twomblv. 550 U.S. 544, 555 (2007)). While pro se
litigants are held to less stringent standards and their pleadings are to be “liberally construed,”
they still must adhere to the basic standards of Rule 8. Erickson v. Pardus. 551 U.S. 89, 94
(2007). Federal Rule of Civil Procedure 12(b)(6) provides for the dismissal of a complaint, in
whole or in part, for failure to state a claim upon which relief can be granted. A motion under
Rule 12(b)(6) therefore tests the sufficiency of the complaint against the pleading requirements
of Rule 8(a).
The motion to dismiss standard under Rule 12(b)(6) is set forth in Ashcroft v. Iqbal. 556
U.S. 662. After Iqbal it is clear that “[tjhreadbare recitals of the elements of a cause of action,
9

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 10 of 39

supported by mere conclusory statements, do not suffice” to defeat a Rule 12(b)(6) motion to
dismiss. Id. at 678; see also Twomblv. 550 U.S. 544. “To survive dismissal, ‘a complaint must
contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible on its
face.’” Tatis v. Allied Interstate. LLC. 882 F.3d 422, 426 (3d Cir. 2018) (quoting Iqbal, 556 U.S.
at 678).

Facial plausibility is “more than a sheer possibility that a defendant has acted

unlawfully.” Id (quoting Iqbal, 556 U.S. at 678). Instead, “[a] claim has facial plausibility when
the plaintiff pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id (quoting Iqbal, 556 U.S. at 678).
Applying the principles of Iqbal and Twomblv, the Third Circuit in Santiago v.
Warminster Township. 629 F.3d 121 (3d Cir. 2010), set forth a three-part analysis that a district
court in this Circuit must conduct in evaluating whether allegations in a complaint survive a Rule
12(b)(6) motion to dismiss:
First, the court must “tak[e] note of the elements a plaintiff must plead to state a
claim.” Second, the court should identify allegations that, “because they are no
more than conclusions, are not entitled to the assumption of truth.” Finally,
“where there are well-pleaded factual allegations, a court should assume their
veracity and then determine whether they plausibly give rise to an entitlement for
relief.”
Id at 130 (quoting Iqbal, 556 U.S. at 675, 679). The inquiry is normally broken into three parts:
“(1) identifying the elements of the claim, (2) reviewing the complaint to strike conclusory
allegations, and then (3) looking at the well-pleaded components of the complaint and evaluating
whether all of the elements identified in part one of the inquiry are sufficiently alleged.” Malleus
v. George. 641 F.3d 560, 563 (3d Cir. 2011).
A complaint must do more than allege a plaintiff’s entitlement to relief, it must “show”
such an entitlement with its facts. Fowler v, UPMC Shadvside, 578 F.3d 203, 210-11 (3d Cir.
2009) (citing Phillips v. County of Allegheny, 515 F.3d 224, 234-35 (3d Cir. 2008)). “[W]here
10

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 11 of 39

the well-pleaded facts do not permit the court to infer more than the mere possibility of
misconduct, the complaint has alleged—but it has not ‘show[n]’—‘that the pleader is entitled to
relief.’” Iqbal. 556 U.S. at 679 (alteration in original) (citation omitted). The “plausibility”
determination is a “context-specific task that requires the reviewing court to draw on its judicial
experience and common sense.” Id.
IV.

ANALYSIS
Pursuant to Federal Rule of Civil Procedure 12(b)(6), Defendants seek to dismiss the

SAC in its entirety.

(Doc. Nos. 60-61.)

Each of Defendants’ arguments in opposition to

Plaintiff’s claims will be addressed in turn.
A. The SAC Fails to Comply with Federal Rule of Civil Procedure 8(a)(2)
Defendants argue that because the SAC is 145 pages long and contains 1,000 individually
numbered paragraphs as well as subparagraphs, this Court should require Plaintiff to file yet
another Amended Complaint that complies with Federal Rule of Civil Procedure 8(a)(2).5 (Doc.
No. 60 at 19.) As Defendants note, the SAC dwarfs other complaints that courts in this District
have stricken for failure to comply with Rule 8. (Id (citing Welsh v. Male. No. 05-cv-6838,
2007 WL 906182 (E.D. Pa. Mar. 22, 2007); Breicak v. County of Bucks. No. 03-4688, 2004 WL
377675 (E.D. Pa. Jan. 28, 2004)).) In addition, the manner in which it is pleaded makes it
difficult for any Defendants to meaningfully respond to the allegations. Therefore, it should be
dismissed for failure to comply with Rule 8.
Defendants’ request will not be granted because, as will be noted infra, the Court is able
to decipher the claims made in the SAC by reading it liberally and in the light most favorable to
Plaintiff. But in so doing, the Court finds that the SAC fails to state claims upon which relief can
5 Federal Rule of Civil Procedure 8(a)(2) provides as follows: “A pleading that states a claim
for relief must contain a short and plain statement of the claim showing that the pleader is
entitled to relief.”
11

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 12 of 39

be granted under Rule 12(b)(6). In addition, for reasons discussed below, Plaintiff will not be
granted leave to file another Amended Complaint.
B. The SAC Fails to State a Claim Against Entities that
Did Not Exist at the Time Her Association with City Fitness Ended
In the SAC, Plaintiff names City Fitness Management, Inc.; 1148 Wharton Street Fitness,
LLC; and 400 Walnut Street Fitness, LLC as Defendants. (Doc. No. 58.) As Defendants note,
these entities did not exist at the time Plaintiff’s association with City Fitness ended on
December 16, 2013. City Fitness Management, LLC was not incorporated until August 24,
2015. (Doc. No. 60, Ex. K.) 1148 Wharton Street Fitness, LLC and 400 Walnut Street Fitness,
LLC both were organized on July 1, 2014. (Id at Ex. L.) Because these entities did not exist at
the time Plaintiff’s association with City Fitness ended on December 16, 2013, they cannot be
liable for any action arising out of Plaintiff’s association with City Fitness. Therefore, the SAC
fails to state a claim against these entities and they will be dismissed as Defendants.6
C. The SAC Fails to State a Claim Against C. Richard Horrow, Esquire
In Count III of the SAC, Plaintiff alleges a claim of Misclassification as an Independent
Contractor regarding her association with City Fitness. (Doc. No. 58 at 131-33.) She alleges
that, among others, Horrow, whom Plaintiff identifies as the “tax and business attorney for
Defendants,” directed City Fitness to “misclassify its employees as independent contractors.”
(Id. at 5; id. at 39 ^ 232). Plaintiff further asserts that “DEFENDANT HORROW directed
6 Defendant Bombay Yoga Company also did not exist at the time Plaintiff’s association with
City Fitness ended. As noted in the SAC, Bombay Yoga Company “opened for business” in
“December 2014,” a year after Plaintiff was terminated. (Doc. No. 58 at 94 702.) This
entity was served with process on March 6, 2018. (Doc. No. 79.) To date, it has yet to
respond to the Complaint—the docket reflects that its answer was due March 27, 2018.
However, because it did not exist at the time Plaintiff’s association with City Fitness ended on
December 16, 2013, it cannot be liable for any action arising out of Plaintiff’s association with
City Fitness and any claim against it will fail. Accordingly, Defendant Bombay Yoga
Company also will be dismissed as a Defendant.
12

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 13 of 39

DEFENDANT CITY FITNESS to terminate [Plaintiff’s] employment because she complained to
the EEOC about discrimination.” (Id at 42 ]j 357.) She states that City Fitness “colluded with
DEFENDANT HORROW[ and others] to exact revenge against MS. PEDRO for filing this
lawsuit.” (|d at 120 If 930.)
Defendants construe the SAC to allege that Horrow “was part of some sort of conspiracy
to misclassify employees as independent contractors,” referencing her allegations of collusion.
(Doc. No. 60 at 21 & n.56.) They state that because Plaintiff affirmatively states that Horrow
was acting in his capacity of attorney for City Fitness, he cannot be held liable in this action.
(Id.) This is because pursuant to the Third Circuit decision Heffeman v. Hunter, conspiracy
claims based on an attorney-client relationship must fail. (Id at 20 (citing 189 F.3d 405, 413 (3d
Cir. 1999).) In addition, Defendants allege that Horrow’s communications with City Fitness
occurred within the scope of his representation and therefore would be covered by attorney-client
privilege pursuant to Rule 1.6 of the Pennsylvania Rules of Professional Conduct. (Doc. No. 60
at 20.) Defendants further submit that Plaintiff would not have access during discovery to
attorney-client communications and hence Plaintiff would be unable to support the claim against
Horrow at trial. (Doc. No. 60 at 22.)
In her Response, Plaintiff confirms Defendants’ reading of her allegations as stating a
claim of conspiracy. She asserts that Horrow is a “co-conspirator” with City Fitness regarding its
classification of employees as independent contractors as well as part of the group that
discriminated and retaliated against her. (Doc. No. 64 at 35-36.) She also contends that Horrow
does not have an attorney-client privilege in this action because he is a co-Defendant who was
not serving in his capacity as legal counsel. (Id.)

13

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 14 of 39

The Third Circuit has held that the following elements are required to state a cause of
action for civil conspiracy: “(a) a combination of two or more persons acting with a common
purpose to do an unlawful act or to do a lawful act by unlawful means or for an unlawful
purpose; (2) an overt act done in pursuance of the common purpose; and (3) actual legal
damage.” Gen Refractories Co. v. Fireman’s Fund Ins. Co.. 337 F.3d 297, 313 (3d Cir. 2003)
(citation omitted). Moreover, under the intracorporate conspiracy doctrine, “an entity cannot
conspire with one who acts as its agent.” Id. (citing Heffeman. 189 F.3d at 413 (analyzing the
doctrine in the context of attorney-client conspiracies under 42 U.S.C. § 1985(l)-(2))).
The Heffeman decision explicitly rejects the notion that an attorney can conspire with a
client who is acting within the scope of the representation.

Heffeman. 189 F.3d at 413

(announcing a “ban on conspiracies in the attorney-client context”). “When an attorney’s alleged
conspiratorial conduct occurs within the scope of representation, the conduct cannot be
characterized as an actionable conspiracy.” Evans v. Chichester Sch. Dist.. 533 F. Supp. 2d 523,
529 (E.D. Pa. 2008) (citing Gen, Refractories Co.. 337 F.3d at 313-14; and Heffeman. 189 F.3d
at 413-14).
The Heffeman court stated that an exception exists only “when the employees have acted
for their sole personal benefit.” Heffeman, 189 F.3d at 412. The court further noted that “the
mere fact that attorneys have ‘mixed motives,’ such as ‘enhancing’ their reputation by aggressive
representation, does not remove their conduct from the scope of the agency.” Id. at 413 (citation
omitted). The Third Circuit concluded that “because defendants acted within the attorney-client
relationship, they cannot be considered conspirators.” Id at 407.
The Third Circuit in Heffeman cited with approval the Seventh Circuit decision Travis v.
Gary Community Mental Health Center. Inc., which considered this issue in the context of a

14

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 15 of 39

retaliation claim under the FLSA. 921 F.2d 108 (7th Cir. 1990). There, the Seventh Circuit
rejected the suggestion that an attorney could create a conspiracy every time she consulted with a
client. Id. at 111. The Court held the following:
[Bjefore firing Travis, the executives of the Center consulted with Douglas M.
Grimes, its outside counsel. Although Grimes was not an employee of the Center,
this does not create a conspiracy. In the end the Center took the decision to fire
Travis; only one economic entity participated. If consultation with counsel could
create a conspiracy, then Copperweld would be a hollow decision, avoidable
whenever the corporation discusses its business plans with lawyers, accountants,
or other advisers—as all do. Treating involvement of a lawyer as the key
unlocking § 1985 would discourage corporations from obtaining legal advice
before acting, hardly a sound step to take.
Id.
Here, viewing the SAC in the light most favorable to Plaintiff, and considering these
precedents, the SAC does not allege any conduct by Horrow that took place outside the scope of
attorney-client representation. Nor does it allege that any of Horrow’s actions were taken for his
“sole personal benefit.” Therefore, because Horrow acted within the attorney-client relationship,
he cannot be considered a co-conspirator. Accordingly, the SAC fails to state a claim against
him.
Additionally, contrary to the argument in Plaintiff’s Response, at issue are not Horrow’s
communications while a Defendant during the litigation, but rather during the events that gave
rise to the claims in the SAC when he was the attorney for City Fitness. That said, because
Plaintiff fails to state a claim against Horrow, there is no need to discuss the bar to discovery by
the attorney-client privilege raised by Defendants.
D. The SAC Fails to Allege Any Improper Conduct by Fit Perx, LLC
The SAC names Fit Perx, LLC as a Defendant in this case. This entity was originally
organized as City Perx, LLC on November 21, 2013, a few weeks before Plaintiff’s association

15

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 16 of 39

with City Fitness ended. (Doc. No. 60, Ex. M.) Defendant argues that because Plaintiff does not
allege or suggest that she ever worked for City Perx, LLC, or that it ever took any action that
caused her to suffer any damage, she has not pled a plausible claim against City Perx, LLC.
The SAC makes the following allegations about City Perx, LLC:
Defendant No. 5: Fit Perx, LLC (formerly known as City Perx, LLC) is an
affiliated entity of DEFENDANT CITY FITNESS d/b/a City Fitness Philadelphia
and/or City Fitness is located at 200 Spring Garden Street, Philadelphia, PA 19123
(hereinafter referred to singularly as Fit Perx, LLC or collectively as
“DEFENDANT CITY FITNESS”).
* * *

Defendant No. 10: DEFENDANT QUINN is a white, male age 50+, who is the
Vice President of City Fitness Philadelphia and its affiliated entities. He was also
MS. PEDRO’s former supervisor when he served as the General Manager of the
Northern Liberties location and Vice President of Fit Perx, LLC (City Perx, LLC).
* * *

After the sexual harassment accusations, DEFENDANT CITY FITNESS gave . ..
DEFENDANT QUINN a promotion to Vice President of Fit Perx, LLC (formerly
City Perx, LLC), and a pay raise.
(Doc. No. 58 at 4-5; id at 45

287-288.)

Because none of these facts alleges or suggests that Plaintiff ever worked for or with City
Perx, LLC or that City Perx, LLC ever took any action that caused Plaintiff to suffer any
damage, Plaintiff has not pled a plausible claim against the entity and it will be dismissed as a
Defendant.
E. The SAC Fails to State a Claim Against Kenneth Davies, Jeff Quinn, Kathryn
Blessington, Ruben Diaz, Kristen Symballa, Evin Ford, Janet Harris-Ford,
Gail Kotel, Marie Hilferty, Harrison Treegoob, Edita Zlatic-Stuckey, Maxwell
Stuckey and Stephanie Stoyer
In the SAC, Plaintiff lists as Defendants the individuals named in the heading.
Defendants advance four arguments why the SAC fails to state a claim against these individuals:

16

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 17 of 39

First, any claim against an individual Defendants under the ADEA or Title VII must be dismissed
because there is no individual liability under these statutes. (Doc. No. 60 at 23; Doc. No. 61 at 910; Doc. No. 81 at 7-8.) Second, Plaintiff’s claim under the PHRA fails because the SAC is
devoid of allegations that give rise to a plausible claim of aiding or abetting under the PHRA
because the individual employees are not supervisors. (Doc. No. 60 at 23-24; Doc. No. 61 at 910; Doc. No. 81 at 7-8.) Third, Plaintiff failed to exhaust her administrative remedies under the
PHRA. (Doc. No. 61 at 24-25.) And fourth, Plaintiff’s claims under § 1981 are precluded by the
statute of limitations. (Id at 25-26.) In her Response, Plaintiff copies and pastes or cites to
excerpts from the SAC to reiterate what is alleged against these individuals. (Doc. No. 64 at 2535.)
1. There Is No Individual Liability Under the ADEA or Title VII
Regarding Defendants’ first point, the Third Circuit has held that there is no individual
liability under the ADEA or Title VII. E.g., Muhammad v. Sills Cummis & Gross P.C., 621 F.
App’x 96, 98 (3d Cir. 2015) (“As a matter of law, the ADEA does not provide for individual
liability.”); Barnett v. N.J. Transit Corn.. 573 F. App’x 239, 242 n.2 (3d Cir. 2014) (“There is no
individual liability under Title VII.”). Accordingly, any claim asserted against the individual
Defendants under these statutes will be dismissed.
2. Plaintiff Fails to State a PHRA Claim Against
Individuals Without Supervisory Authority
Regarding Defendants’ second point, the PHRA provides in relevant part as follows:
It shall be an unlawful discriminatory practice ... [f]or any person, employer,
employment agency, labor organization or employee, to aid, abet, incite, compel
or coerce the doing of any act declared by this section to be an unlawful
discriminatory practice, or to obstruct or prevent any person from complying with
the provisions of this act or any order issued thereunder, or to attempt, directly or
indirectly, to commit any act declared by this section to be an unlawful
discriminatory practice.
17

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 18 of 39

43 Pa. Cons. Stat. § 955(e). While there can be individual liability under the PHRA, that liability
does not extend past supervisory employees. See Dici v. Pennsylvania. 91 F.3d 542, 553 (3d Cir.
1996). “A non-supervisory employee who engages in discriminatory conduct cannot be said to
‘intend’ that his employer fail to respond.” Id (quoting Tyson v. Cigna Corp.. 918 F. Supp. 836,
841 (D.N.J. 1996)). Therefore, to sustain a claim under § 955(e), Plaintiff would have to allege
facts to show that the individual Defendants were supervisory employees. Here, Blessington,
Diaz, Symballa, Ford, Harris-Ford, Kotel, Hilferty, Treegoob, Zlatic-Stuckey, Stuckey and Stoyer
either did not have supervisory authority or were not employees of City Fitness. Accordingly,
claims under the PHRA against these individuals will be dismissed. Claims under this statute
also will be dismissed against individuals with supervisory authority for reasons explained in the
next section.
3. Plaintiff Failed to Exhaust Her Administrative Remedies
Under the PHRA
Regarding Defendants’ third point, a district court in the Third Circuit has explained the
exhaustion requirement under the PHRA as follows:
“[BJefore filing suit under the PHRA, a plaintiff must first exhaust all
administrative remedies by filing a charge of discrimination (also referred to as an
administrative complaint) with the [Pennsylvania Human Relations Commission]
or EEOC.” The administrative complaint “must name the individual(s) alleged to
have violated the PHRA.” Noncompliance with this requirement will generally
bar a later action against an individual who was not named in the administrative
complaint.
Kunsak v. Wetzel. No. 15-1648, 2016 WL 6601574, at *5 (W.D. Pa. Nov. 7, 2016) (citations
omitted). As Defendants note, the only parties named in the Charge of Discrimination in this
case were City Fitness, LLC and South Street Fitness, LLC. (Doc. No. 60, Ex. J.) Therefore,
pursuant to the exhaustion requirement as stated in Kunsak. Plaintiff cannot now proceed with

18

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 19 of 39

claims under the PHRA against those individuals whom she did not name in the administrative
complaint. Dismissal for failure to exhaust would apply not only to the individuals referred to in
Section III.E.2, supra, but also to owner Kenneth Davies and Vice President Jeff Quinn.
4. Plaintiff’s Claims Under § 1981 Are Precluded by the
Statute of Limitations
Regarding Defendants’ fourth point, the statute of limitation would preclude Plaintiff’s
claims under § 1981. “In Pennsylvania, the statute of limitations for a Section 1981 claim is two
years.” Lane v. Local Union 2-286. No. Civ. A. 04-cv-1763, 2005 WL 1693934, at *5 n.9 (E.D.
Pa. July 19, 2005). Plaintiff was terminated on December 13, 2013. Her initial Complaint
named only Davies, Geiger, Hicks and Quinn as individual Defendants.7

The Amended

Complaint that named the remaining parties was not filed until May 31, 2016, more than two
years after Plaintiff’s termination. Therefore, the statute of limitations bars all claims against
Blessington, Diaz, Symballa, Ford, Harris-Ford, Kotel, Hilferty, Treegoob, Zlatic-Stuckey,
Stuckey and Stoyer. 8

n

8

Plaintiff’s § 1981 claims against these Defendants fail for reasons explained elsewhere in the
Opinion.
Plaintiff also named Anne Rogers as a Defendant and asserts claims against her in Counts IV
through VII. (Doc. No. 58.) Rogers is unrepresented in this action and the record reflects that
Plaintiff made several unsuccessful attempts to serve her. (See Doc. Nos. 24, 32, 42, 49.) In
any event, for the same reasons explained in Section III.E of this Opinion on why the SAC
fails to state a claim against the other individual Defendants, it fails to state a claim against
Rogers, who is alleged to be a member of the fitness club. (See Doc. No. 58 at 116-19.)
Accordingly, Rogers also will be dismissed as a Defendant.
19

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 20 of 39

F. The SAC Fails to State a Plausible Claim of Unequal Wage Payment
In Count I of the SAC, Plaintiff asserts a claim for unequal pay under the Equal Pay Act,
the FLSA, Title VII, 42 U.S.C. § 1981, the Pennsylvania Equal Pay Law and the PHRA.9 (Doc.
No. 58 at 126-27.) She argues that these statutes were violated when in January 2011, City
Fitness reduced the pay for all yoga teachers and group exercise instructors from a fixed rate of
$30 a class to $25 a class, and in October 2013, when Geiger began paying Goodritz a fixed rate
of $35 a class while others still were paid $25 a class. (Doc. No. 58 at 17-18

47-49.)

Defendants submit that because Plaintiff has admitted that City Fitness paid younger,
Caucasian male instructors the same amount as Plaintiff was paid, her claim is without merit.
(Doc. No. 60 at 26-27.) In her Response, Plaintiff reiterates what she alleged in the SAC and
states that pay equality should have been achieved through a payment system that was based on
seniority. (Doc. No. 64 at 40-41.)
“The Equal Pay Act prohibits employers from discriminating based on sex.” Fairclough
v. Wawa. Inc.. 412 F. App’x 465, 468 (3d Cir. 2010). To state a plausible claim under the Equal
Pay Act,
[t]he Plaintiff must first establish a prima facie case by demonstrating that
employees of the opposite sex were paid differently for performing “equal
work”—work of substantially equal skill, effort and responsibility, under similar
9 Plaintiff alleges a violation of both the federal Equal Pay Act and the Pennsylvania Equal Pay
Law. “However, federal courts in Pennsylvania have previously clarified that the federal law
preempts its state-law counterpart.” Summy-Long v. Pa. St. Univ.. 226 F. Supp. 3d 371, 412
(M.D. Pa. 2016). “[PJlaintiff has invoked coverage of the Federal [Equal Pay] Act, and,
therefore, is excluded from a claim under the Pennsylvania Act.” Id. (alterations in original)
(citation omitted).
Further, as stated supra in Sections IV.E.3 and IV.E.4, respectively, Plaintiff has failed to
exhaust her administrative remedies under the PHRA, and her claims under § 1981 are
precluded by the statute of limitations. Therefore, Plaintiff cannot state a claim for unequal
pay under these statutes.
20

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 21 of 39

working conditions. The burden of persuasion then shifts to the employer to
demonstrate the applicability of one of the four affirmative defenses specified in
the Act.
Stanziale v. Jargowskv. 200 F.3d 101, 107 (3d Cir. 2000) (citation omitted).10 The SAC states
that City Fitness paid all fitness instructors, including younger, male and Caucasian individuals,
the same rate of pay as Plaintiff was paid. While Plaintiff alleges that Goodritz was paid a higher
rate, he is the only person identified as receiving a larger amount. See Simpson v, Kay Jeweler.
142 F.3d 639, 642 (3d Cir. 1988) (“[A] Plaintiff does not create an issue of fact merely by
selectively choosing a single comparator who was allegedly treated more favorably, while
ignoring a significant group of comparators who were treated equally to her.”). In addition, her
claim fails because other individuals similarly situated to her were paid the same amount as she
was paid. Under these circumstances, Plaintiff cannot sustain a claim for unequal pay.
G. Plaintiff Lacks Standing to Bring a Claim Under the
Employee Retirement Income Security Act (ERISA)
In Count III of the SAC, Plaintiff asserts that she and other fitness instructors were
misclassified as independent contractors. (Doc. No. 58 at 131-33.) Defendants argue to the
contrary that while this claim also is pled by referring to numerous statutes, it apparently only
alleges a violation of ERISA, which must fail because Plaintiff was never an employee of City
Fitness and was never eligible for any benefit plan. (Doc. No. 60 at 27.) In her Response,
Plaintiff asserts that she was an employee.

(Doc. No. 64 at 41.) The Court agrees with

Defendants on this claim.
Under ERISA, “[a] civil action may be brought... by a participant or beneficiary ... to
recover benefits due to him under the terms of his plan, to enforce his rights under the terms of

10 The same analysis practically applies to the claims under the other statutes. E.g. Nw, Airlines.
Inc, v. Transport Workers Union of Am.. 451 U.S. 77, 86 n.15 (1981).
21

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 22 of 39

the plan, or to clarify his rights to future benefits under the terms of the plan.” 29 U.S.C. §
1132(a)(1)(B). However, “to bring a lawsuit... under subsection (a)(1)(B) of ERISA, plaintiff
must be a participant of the plan.” Bates v. Bell Tel. Co.. No. 93-217, 1993 WL 379542, at *5
(E.D. Pa. July 13, 1993). ERISA defines a “participant” as:
[A]ny employee or former employee of an employer, or any member or former
member of an employee organization, who is or may become eligible to receive a
benefit of any type from an employee benefit plan which covers employees of
such employer or members of such organization, or whose beneficiaries may be
eligible to receive any such benefit.
29 U.S.C. § 1002(7). The Third Circuit has noted the following:
Nothing in ERISA requires employers to establish employee benefits plans.
Neither does it require that every employee is entitled to participate in a plan that
it does decide to offer, for, as the Supreme Court... stated: “ERISA does not
mandate that employers provide any particular benefits, and does not itself
proscribe discrimination in the provision of employee benefits.” What ERISA
does require, however, is that if an employer decides to provide a plan, that plan is
subject to certain minimum requirements regarding participation, funding and
vesting standards.
* * *

A plaintiff must satisfy two requirements to establish participant status.
First, the plaintiff must be a common law employee. Second, the plaintiff must
be, according to the language of the plan itself, eligible to receive a benefit under
the plan. An individual who fails on either prong lacks standing to bring a claim
for benefits under a plan established pursuant to ERISA.
Bauer v. Summit Bancorp. 325 F.3d 155, 159 (3d Cir. 2003) (quoting Shaw v. Delta Air Lines.
Inc.. 463 U.S. 85,91 (1983)).
Here, Plaintiff has not alleged plausible facts to support her claim that she was eligible to
receive benefits of a plan under ERISA. She has not identified any plan in which she was a
member. Plaintiff’s only claim is that she and other instructors were excluded from participation
in benefits available to City Fitness employees.

Because her allegations fail to show that

Plaintiff was a participant of a plan in which any benefits were available to her, she has no
standing to bring a claim under ERISA, and this claim will be dismissed.
22

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 23 of 39

H. The SAC Fails to State Plausible Claims for Relief Under the
Fair Labor Standards Act (FLSA)
In Count IV of the SAC, Plaintiff sets forth claims, albeit again under numerous statutes,
alleging that City Fitness failed to provide her with overtime compensation and paid her less than
minimum wage for work performed as Group Exercise Manager. (Doc. No. 58 at 22193; 26-27
118-130.) Plaintiff alleges that she worked “full-time hours” as Group Exercise Manager at
City Fitness and that City Fitness failed to pay her minimum wage for hours she worked on call
in that capacity. (Doc. No. 58 at 26-27

122-124.) She also alleges that she had to be

“available 24/7 via telephone, text and email” and that she was not paid minimum wage for the
work she performed while available “24/7.” (Id at 27 ^ 127-128.) She also claims that City
Fitness “failed to record the hours she worked as the Group Exercise Manager.” (Doc. No. 64 at
42.) These claims can only be construed as ones falling under the FLSA and its equivalent
statutes under state law, and the Court will treat them as such.11
Defendants state that Plaintiff is attempting to set forth claims under the FLSA and its
equivalent statutes under state law. (Doc. No. 60 at 29.) They submit that Plaintiff does not
allege that she was not paid for overtime hours worked in excess of 40 a week, or that she was
paid less than the federally mandated minimum wage. (Id) Therefore, she cannot sustain claims
under the FLSA or any comparable Pennsylvania statutes. (Id.)
The Supreme Court in Encino Motorcars. LLC v. Navarro has stated the following
regarding the FLSA:
[The FLSA was] enacted in 1983 to “protect all covered workers from
substandard wages and oppressive working hours.” Among its other provisions,
the FLSA requires employers to pay overtime compensation to covered
11 In her Response, Plaintiff confirms that these claims arise under the FLSA and the
Pennsylvania Minimum Wage Act. (Doc. No. 64 at 42.)

23

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 24 of 39

employees who work more than 40 hours in a given week. The rate of overtime
pay must “not be less than one and one-half times the regular rate” of the
employee’s pay.
136 S. Ct. 2117, 2121 (2016) (citations omitted); see also Davis v. Avington Metn’l Hosp.. 765
F.3d 236, 241-43 (3d Cir. 2014) (plausibility standards of Twombly and Iqbal apply to claims for
failure to pay overtime compensation under FLSA, so a complaint that fails to allege a given
workweek when plaintiff worked in excess of 40 hours and was not paid overtime is
insufficient).
The Third Circuit has confronted the issue of an employer’s failure to compensate for
hours worked on-call, and set forth a four-factor analysis to be used when determining whether
time spent by an employee waiting on-call is compensable:
first, whether the employee may carry a beeper or leave home; second, the
frequency of calls and the nature of the employer’s demands; third, the
employee’s ability to maintain a flexible on-call schedule and switch on-call
shifts; and fourth, whether the employee actually engaged in personal activities
during on-call time.
Ingram v. County of Bucks. 144 F.3d 265, 268 (3d Cir. 1998). The Ingram court cautioned that
only if an analysis of these factors “reveal[s] onerous on-call policies and significant interference
with the employee’s personal life” is the on-call time compensable. Id And regarding minimum
wage requirements, the FLSA provides that employers must pay their employees a minimum
wage of $7.25 an hour. 29 U.S.C. § 206.
Regarding an employer’s failure to keep records of hours its employees worked, the
Third Circuit has stated the following:
When an employee brings a claim under the FLSA, he ordinarily bears “the
burden of proving that he performed work for which he was not properly
compensated.” Because the FLSA requires every employer to keep records of the
“wages, hours, and other conditions and practices” of its employees, 29 U.S.C. §
211(c), an employee easily discharges this burden by “securing the production of
those records.” Such a burden becomes difficult to meet, however, where an
24

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 25 of 39

employer has not maintained its records. Under those circumstances, “[t]he
burden of any consequent imprecision [in an employee’s calculation of damages]
must be borne by th[e] employer,” and the employee will only be required to
“submit sufficient evidence from which violations of the [FLSA] and the amount
of an award may be reasonably inferred.” Once this inference is created, the
burden shifts to the employer to rebut that inference.
Rosano v. Township of Teaneck. 754 F.3d 177, 188 (3d Cir. 2014) (alterations in original)
(citations omitted).
Turning to Plaintiff’s claims in the SAC, there are not sufficient facts alleged from which
this Court can plausibly infer that Plaintiff was not compensated for hours worked in excess of
40 hours during a given week. Plaintiff merely states that she worked “full time,” she worked
“on call,” and she had to be “available 24/7 via telephone, text and email.” (Doc. No. 58 at 22 ^]
93; 26-27 fflj 118-130.) These allegations do not suffice under Davis because they do not allege a
given workweek when Plaintiff worked in excess of 40 hours and was not paid overtime. See
Davis. 765 F.3d at 241-43.
Plaintiff also cannot establish that the hours she worked “on call” are compensable
because she has not alleged sufficient facts to show that such hours significantly interfered with
her life. Ingram. 144 F.3d at 268. Her vague statement that she had to be “available 24/7 via
telephone, text and email” does not suffice to show such significant interference. For example, it
does not provide information about whether Plaintiff was ever constrained to her home or was
unable to engage in personal activities during on-call time. See iff
As for minimum wage, Plaintiff affirmatively states that she was paid $25 for each fortyfive minute long class, which exceeds the mandatory minimum wage of 7.25 an hour. Thus, her
claim that she was paid less than the mandatory minimum wage is without merit.
Plaintiff raises for the first time in her Response to the Motions to Dismiss that City
Fitness failed to record her hours worked, but this allegation is not made in the SAC. Because
25

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 26 of 39

she has not alleged at all any plausible facts to support her claim that City Fitness failed to record
hours, this contention is also without merit. For these reasons, Plaintiff cannot sustain a claim
under the FLSA or its Pennsylvania state analogue statute.
I. The SAC Fails to State a Plausible Claim for
Tortious Interference with Business Relationship
In Count V of the SAC, Plaintiff alleges a claim against City Fitness and a number of
individual Defendants for “Post-Employment Retaliation and Tortious Interference with Business
Relationships” under the ADEA, Title VII, 42 U.S.C. § 1981 and the PHRA.]2 Defendants
contend that this claim fails for three reasons: First, any Tortious Interference claim under the
PHRA is flawed because Defendants are all identified as City Fitness employees and therefore
are legally incapable of interfering with Plaintiff’s employment at City Fitness. (Doc. No. 60 at
30.)

Second, because Plaintiff asserted she was an employee of City Fitness and not an

independent contractor, no claim for Tortious Interference can exist.

(Id.)

Third, because

Plaintiff was terminated by City Fitness on December 16, 2013, her Complaint was filed on
September 14, 2015, and she first asserted this claim in the Amended Complaint filed on May
31, 2016, the two-year statute of limitations for this claim expired before she asserted it, and
therefore this claim is time barred. (Id at 31.) In her Response, Plaintiff argues that her claim
refers to actions taken after her employment ended. (Doc. No. 64 at 42-43.)
Regarding Defendants’ first point, “[a] right of recovery under the theory of tortious
interference only exists if there is a contractual relationship between the plaintiff and a party
other than the defendants.” Hall v. Easton Area Sch. Dist.. No. 10-7603, 2012 WL 526287, at *8
(E.D. Pa. Feb. 16, 2012). The Pennsylvania Superior Court has explained:

12 While Plaintiff captioned Count V also as “Post-Employment Retaliation,” there are no facts
alleged to support such a claim.
26

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 27 of 39

Essential to the right of recovery on this theory is the existence of a contractual
relationship between the plaintiff and a party other than the defendant. It is well
settled that a corporation cannot tortuously interfere with a contract to which it is
a party. Because a corporation acts only through its agents and officers, such
agents or officers cannot be regarded as third parties when they are acting in their
official capacities.
Nix v. Temple Univ.. 596 A.2d 1132, 1137 (Pa. Super. Ct. 1991). Because Plaintiff has pled that
the individual employees were employees and agents of City Fitness, her Tortious Interference
claim against City Fitness and the individual employee Defendants named in Count V will be
dismissed.
Regarding Defendants’ second point, “[u]nder the doctrine of judicial estoppel, a court
can defend the integrity of the judicial process by barring a party from taking contradictory
positions during the course of the litigation.” G-I Holdings. Inc, v. Reliance Ins. Co.. 586 F.3d
247, 261 (3d Cit. 2009). Because Plaintiff has asserted that she was an employee of City Fitness,
judicial estoppel would apply. Thus, under this doctrine, she would be barred from taking a
contradictory position, that is, she was not an employee but an independent contractor, to support
her claim for Tortious Interference.
Regarding Defendants’ third point, pursuant section 5524(7) of the Pennsylvania
Consolidated Statutes, a two-year statute of limitations applies to
[a]ny other action or proceeding to recover damages for injury to person or
property which is founded on negligent, intentional, or otherwise tortious conduct
or any other action or proceeding sounding in trespass, including deceit or fraud,
except an action or proceeding subject to another limitation specified in this
subchapter.
42 Pa. Cons. Stat. § 5524(7). Thus, tortious interference with a business relationship would fall
within this provision and has a two-year statute of limitations. Moreover, the Third Circuit has
held that when it is clear from the face of the complaint that a claim was not brought within the
applicable statute of limitations, the court may dismiss such claim pursuant to Federal Rule of
27

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 28 of 39

Civil Procedure 12(b)(6) for failure to state a claim. McPherson v. United States, 392 F. App’x
938, 943 (3d Cir. 2010) (“[W]hen a statute-of-limitations defense is apparent from the face of the
complaint, a court may sua sponte dismiss the complaint pursuant to 28 U.S.C. § 1915 or 28
U.S.C. § 1915A.”). Here, Plaintiff’s association with City Fitness ended on December 16, 2013.
The claim for tortious interference was not asserted until May 31, 2016, more than two years
later, when the Amended Complaint was filed. Therefore, the statute of limitations bars the
claims for tortious interference made in Count V of the SAC against all named Defendants.
J. The Exhibits Attached to the Prior Motion to Dismiss Do Not
Show the Existence of Any Plausible Claim Against Defendants
In Count VII of the SAC, Plaintiff alleges a cause of action arising from exhibits attached
to Defendants’ initial Motion to Dismiss the Amended Complaint. (Doc. No. 58 at 143-47.) She
claims that the Pennsylvania Unemployment Compensation law prohibited Defendants from
attaching certain exhibits to their Motion to Dismiss. (Doc. No. 33.)
Defendants submit that any claim regarding these exhibits must fail because the Court
has already considered this argument in the litigation and rejected it. (Doc. No. 60 at 32.) This
decision is now the “law of the case” and therefore cannot be challenged. (Id.) In her Response,
Plaintiff asserts that the exhibits have not been properly authenticated or were forged. (Doc. No.
64 passim.)
Under the “law of the case” doctrine, “when a court decides upon a rule of law, that
decision should continue to govern the same issues in subsequent stages in the same case.”
Pepper v. United States. 562 U.S. 476, 506 (2011). Here, Plaintiff has previously argued that the
Pennsylvania Unemployment Compensation law prohibited Defendants from attaching certain
exhibits to their Motion to Dismiss. (Doc. No. 33.) This Court rejected this argument by Order
dated February 7, 2017. (Doc. No. 40.) For reasons stated in that Order, and because it is now
28

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 29 of 39

the “law of the case,” Plaintiff’s claims regarding Defendants’ attached exhibits are without
merit.
K. The SAC Fails to State A Plausible Claim for Retaliation
In Count II of the SAC, Plaintiff alleges a claim for retaliation under the Age
Discrimination in Employment Act (ADEA), Title VII, 42 U.S.C. § 1981 and the Pennsylvania
Human Relations Act (PHRA). (Doc. No. 58 at 128-31.) In Count IV, she appears to duplicate
this claim as to several individual Defendants. (Id at 133-36.) She apparently alleges retaliation
based on her reported complaint of Geiger’s reference to race. (Id.) She also appears to allege
that somehow Geiger’s comments involved age, sex, ancestry, national origin, color and religious
discrimination. (Id passim.) The bases of the retaliation claim are the actions of City Fitness in
demoting and terminating her employment.
Regarding her demotion, Plaintiff claims she was told by Defendant Geiger that she
would no longer teach the Silver Sneakers class at the South Street location “because the
demographic [there] is more white.” (Id. at 28 ^ 143.) She was told this on October 1, 2013, but
no change in her employment occurred until she was relocated out of the South Street location on
December 10, 2013. (Doc. No. 58 at 28 | 143.) Regarding her termination, she argues that
Defendants terminated her on December 16, 2013, which was soon after she sent an e-mail to
Davies, Geiger, Hicks and Quinn informing them that she “filed” a Charge of Discrimination
with the Equal Opportunity Employment Commission (EEOC). (Id at 53 1355.)
Defendants submit that Plaintiff fails to state a plausible claim for retaliation because she
was demoted and then terminated for legitimate, nondiscriminatory reasons, namely that City
Fitness received numerous complaints from members and instructors regarding Plaintiff’s
conduct.

(Doc. No. 60 at 35.) In addition, when Plaintiff was informed that her teaching

29

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 30 of 39

schedule had been reduced, she was insubordinate by refusing to accept the change. (Id.) In her
Response, Plaintiff emphasizes the proximity of her complaints of discrimination to the
retaliatory action by Defendants as evidence of retaliation. (Doc. No. 64 at 44.)
With respect to claims of retaliation, the Third Circuit has held the following:
To establish a prima facie case of proscribed retaliation under either the ADEA or
the PHRA, a plaintiff must show: (1) that s/he engaged in a protected employee
activity; (2) that s/he was subject to adverse action by the employer either
subsequent to or contemporaneous with the protected activity; and (3) that there is
a causal connection between the protected activity and the adverse action.
Fasold v. Justice. 409 F.3d 178, 188 (3d Cir. 2005). The analysis under Title VII and § 1981 is
identical. See, e.g.. Menekse v. Harrah’s Chester Casino & Racetrack. 649 F. App’x 142,144 (3d
Cir. 2016). “The element of causation, which necessarily involves an inquiry into the motives of
an employer, is highly context-specific.” Kachmar v. Sungard Data Svs.. 109 F.3d 173, 178 (3d
Cir. 1997).
In the absence of direct evidence of retaliation, retaliation claims under the ADEA and
PHRA typically proceed under the McDonnel Douglas13 framework:
Under the McDonnell Douglas standard, courts first determine whether the
plaintiff is able to establish a prima facie case of discrimination. “If the plaintiff
succeeds, the defendant must articulate a legitimate, nondiscriminatory reason for
the adverse employment action. The burden shifts back to the plaintiff to prove,
by a preponderance of the evidence, that the articulated reason was a mere pretext
for discrimination.”
Ward v. Ingersoll-Rand Co.. 688 F. App’x 104, 108 (3d Cir. 2017) (citations omitted). Plaintiff
may show mere pretext by “(i) discrediting the proffered reasons, either circumstantially or
directly, or (ii) adducing evidence, whether circumstantial or direct, that discrimination was more

13 McDonnell Douglas Corn, v. Green. 411 U.S. 792 (1973).
30

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 31 of 39

likely than not a motivating or determinative cause of the adverse employment action.” Fasold v.
Justice. 409 F.3d 178, 185 (3d Cir. 2005) (citation omitted).
In this case there is no direct evidence of discrimination alleged.

Therefore, the

McDonnell Douglas framework analysis is required. Applying the first element of McDonnell
Douglas to the decision to demote Plaintiff, she is able to establish a prima facie case of
discrimination. Assuming Plaintiff engaged in a protected activity when she complained about
discrimination after Defendant Geiger told her she would no longer teach the Silver Sneakers
class at the South Street location “because the demographic [there] is more white,” (Doc. No. 58
at 28 K 143), this meets the first element of a retaliation claim for establishing a prima facie case.
Fasold. 409 F.3d at 188. She also meets the second element of because she “was subject to
adverse action by the employer . .. subsequent to” this activity. Id The adverse element was her
demotion on December 10, 2013. The third element also is met because Plaintiff has shown “a
causal connection between the protected activity and the adverse action,” id, given that such a
connection can be inferred. Specifically, Defendant Geiger told Plaintiff on October 1, 2013 that
she would no longer teach the Silver Sneakers class at the South Street location “because the
demographic [there] is more white,” (Doc. No. 58 at 28 f 143), and on December 10, 2013,
Plaintiff’s job responsibilities were reduced and she was relocated out of the South Street
location.
While Plaintiff can establish a prima facie case of discrimination, Defendants have
articulated legitimate, nondiscriminatory reasons for the adverse employment action.
Specifically, Plaintiff was affirmatively told her responsibilities were being reduced because of
complaints received from club members and other instructors, which were submitted in

31

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 32 of 39

November, closer to the date of the demotion.14 (See Doc. No. 58 at 47 f 300; Doc. No. 60, Exs.
D to I.) Moreover, when Plaintiff had been informed her schedule had been reduced, she was
insubordinate by refusing to accept the change.

Therefore, Defendant had legitimate,

nondiscriminatory reasons to demote Plaintiff. Ward, 688 E App’x at 108.
Regarding the last step of McDonnell Douglas, Plaintiff has failed to meet her burden of
showing that the reasons for the demotion were merely pretextual. She fails under the first
pretext prong because she has not “discredited the proffered reasons for her demotion, either
circumstantially or directly.”

Fasold, 409 E3d at 185 (citation omitted).

In fact, she

acknowledges that City Fitness received numerous complaints from members and instructors
regarding Plaintiff’s conduct. (Doc. No. 58 at 47 f 300.)

She also fails under the alternative

prong because she has not “adducfed] evidence, whether circumstantial or direct, that
discrimination was more likely than not a motivating or determinative cause of the adverse
employment action.” Fasold. 409 F.3d at 185 (citation omitted). Based on the facts alleged, the
complaints regarding Plaintiff’s conduct were more likely the motivating or determinative cause
of her demotion because Plaintiff was demoted shortly after the complaints were submitted.
Moreover, Defendant informed Plaintiff her responsibilities were being reduced because of
complaints received from club members and other instructors. (See Doc. No. 58 at 47

300;

Doc. No. 60, Exs. D to I.)
Regarding Plaintiff’s termination claim, she cannot establish a prima facie case because
her termination occurred before she filed a charge with the EEOC, which she relies on as the

14 Plaintiff admits that City Fitness received multiple complaints from members and instructors
regarding her conduct. (Doc. No. 58 at 47 300.) These complaints included threats to
cancel membership and a claim that Plaintiff had stalked and confronted Edita Zlatic-Stuckey
at the grocery store. (Id.) These complaints clearly provide a legitimate, nondiscriminatory
basis for the reduction of Plaintiff’s duties.
32

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 33 of 39

basis for her termination. Simply put, she cannot show that she engaged in a protected activity
before she was subject to an adverse action subsequent to or contemporaneous with that activity.
The facts show that her Charge of Discrimination was filed with the EEOC on December 19,
2013, and Plaintiff was terminated three days earlier on December 16, 2013. The Charge of
Discrimination filed with the EEOC was attached as an exhibit and is dated December 19, 2013,
which belies Plaintiff’s contention that she “filed” it on December 16, 2013, the date City Fitness
terminated her. (Doc. No. 60, Ex. J; Doc. No. 58 at 53 1355.) Thus, viewing the evidence in the
light most favorable to Plaintiff, it shows beyond peradventure that Plaintiff filed the charge on
December 19, 2013, three days after she was terminated, and therefore, there was no adverse
action based on a protected activity.
Even if Plaintiff could establish a prima facie case of retaliation based on her termination,
she cannot succeed under the McDonnell Douglas framework because Defendants have
articulated a legitimate, nondiscriminatory reason for the adverse employment action.
Defendants had a legitimate, nondiscriminatory reason to terminate Plaintiff because, as Plaintiff
admits, she was the subject of the complaints and refused to accept the change when she learned
her teaching schedule had been reduced. (Doc. No. 58 at 53 f 352.) As noted, these are
legitimate, nondiscriminatory and nonretaliatory reasons for her termination by City Fitness.
Additionally, Plaintiff cannot meet her burden of showing Defendants’ articulated reason
for terminating her was merely pretextual. She fails under the first pretext prong because she has
not “discredited the proffered reasons for her [termination], either circumstantially or directly.”
Fasold, 409 F.3d at 185 (citation omitted). She also fails under the alternative prong because she
has not “adduc[ed] evidence, whether circumstantial or direct, that discrimination was more
likely than not a motivating or determinative cause of the adverse employment action.” Fasold,

33

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 34 of 39

409 F.3d at 185 (citation omitted).

Defendants’ articulated reason was more likely the

motivating or determinative cause of her termination because Plaintiff was terminated on
December 16, 2013 shortly after she was insubordinate in refusing to accept her demotion, which
was effective on December 10, 2013. And she did not file a Charge of Discrimination until three
days after she was terminated, so this did not factor into Defendants’ decision to terminate
Plaintiff.
For these reasons, Plaintiff cannot sustain a claim of retaliation under these statutes.
L. The SAC Fails to State a Claim for Unlawful Demotion or Termination
Based on Unlawful Discrimination
In Counts II and IV of the SAC, Plaintiff claims unlawful demotion and termination
under Title VII, the ADEA, the PHRA and 42 U.S.C. § 1981.15

(Id at 128-31, 133-36.)

Defendants respond by reiterating their argument in response to Plaintiff’s retaliation claim:
First, Plaintiff fails to plead a plausible claim for unlawful demotion or termination because City
Fitness received numerous complaints from members and instructors regarding Plaintiff’s
conduct. (Doc. No. 60 at 37.) Second, her claims fail because when she was informed that her
teaching schedule had been reduced, she was insubordinate in that she refused to accept the
change. (Id.)
Under Title VII, “[i]t shall be an unlawful employment practice for an employer ... to
fail or refuse to hire or to discharge any individual, or otherwise discriminate against any
individual with respect to his compensation, terms, conditions, or privileges of employment,

15 Plaintiff also alleges a claim for harassment. The Supreme Court has held that for
discriminatory harassment to be actionable, it must be “sufficiently severe or pervasive ‘to
alter the conditions of [the victim’s] employment and create an abusive working
environment.” Meritor Sav. Bank v. Vinson. 477 U.S. 57, 67 (1986). Here, the facts alleged
do not rise to the level of severe or pervasive. Therefore, the claim of harassment fails.
34

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 35 of 39

because of such individual’s race... or national origin.” 42 U.S.C. § 2000e-2(a)(l) (2012).
Under the PHRA,
[i]t shall be an unlawful discriminatory practice, unless based upon a bona fide
occupational qualification... [f]or any employer because of the race ... or
national origin ... of any individual or independent contractor, to refuse to hire or
employ or contract with, or to bar or to discharge from employment such
individual or independent contractor, or to otherwise discriminate against such
individual or independent contractor with respect to compensation, hire, tenure,
terms, conditions or privileges of employment or contract, if the individual or
independent contractor is the best able and most competent to perform the
services required.
43 Pa. Cons. Stat. § 955 (2017). “The proper analysis under Title VII and the [PHRA] is
identical, as Pennsylvania courts have construed the protections of the two acts interchangeably.”
Weston v. Pennsylvania. 250 F.3d 420, 425 n.3 (3d Cir. 2001). Claims under § 1981 are subject
to the same analysis also. Brown v. J-Kaz, Inc.. 581 F.3d 175, 181082 (3d Cir. 2009) (“[W]e
have previously held that the substantive elements of a claim under section 1981 are generally
identical to the elements of an employment discrimination claim under Title VII.”).
Under the ADEA, “[i]t shall be unlawful for an employer ... to fail or refuse to hire or to
discharge any individual or otherwise discriminate against any individual with respect to his
compensation, terms, conditions or privileges of employment, because of such individual’s age.”
29 U.S.C. § 623(a) (2012).
In an ordinary employment termination case under the ADEA to establish a prima
facie case of age discrimination at the first step of the McDonnell Douglas burden
shifting framework a plaintiff must show that he or she: (1) was a member of the
protected class, Le., was over 40, (2) was qualified for the position, (3) suffered an
adverse employment decision, and (4) ultimately was replaced by a person
sufficiently younger to permit an inference of age discrimination.
Monaco v. Am. Gen. Assurance Co.. 359 F.3d 296, 300 (3d Cir. 2004). As with Plaintiff’s claims
for retaliation, the claims for discriminatory demotion and termination are subject to the analysis
under McDonnell Douglas.
35

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 36 of 39

Regarding Plaintiff’s claims for discriminatory demotion and termination, they fail for
these same reasons explained above in the discussion about retaliation. Even if Plaintiff has
established a prima facie case of discrimination, Plaintiff has pled that City Fitness received
multiple complaints from members and instructors regarding her conduct. (Doc. No. 58 at 47 f
300.)

The SAC lacks any plausible claim that City Fitness had reason to believe these

complaints had any relationship to Plaintiff’s race, age, national origin, color or religion. (See id.
at 47-52; 120-122.) City Fitness reduced Plaintiff’s responsibilities because of these claims, and
she became insubordinate and refused to accept the demotion. (Id.) City Fitness therefore
decided to terminate Plaintiff. (Id.) All these facts are apparent from the face of the SAC.
Therefore, and for reasons stated prior regarding Plaintiff’s retaliation claim, Plaintiff’s claims
relating to her demotion and termination based on unlawful discrimination will be dismissed.
M. Plaintiff’s Defamation Claim Is Precluded by the Statute of Limitations
In Count VI of the SAC, Plaintiff asserts a claim of defamation based on a plethora of
statements made by many named Defendants.

These statements were made before her

termination on December 16, 2013. She accuses many individual Defendants of “consenting” to
these statements. The first time Plaintiff made the Defamation claim was in the SAC, which was
filed on August 9, 2017. Defendants argue that this claim is time barred and precluded by the
absolute litigation privilege. (Doc. No. 60 at 33.)
Pursuant to Section 5523 of the Pennsylvania Consolidated Statutes, a claim for
defamation must be brought within one year from the date of publication. 42 Pa. Cons. Stat. §
5523.

Here, Plaintiff refers to statements made by Defendants before her termination on

December 16, 2013. (See generally Doc. No. 58.) Plaintiff filed the SAC on August 9, 2017,
and raised for the first time her claim of defamation. (See id.) Because Plaintiff did not bring

36

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 37 of 39

this claim within the one-year time period required by the statute of limitations, her defamation
claim is time barred.
To overcome this time bar, Plaintiff claims that the defamatory statements were published
in July 2016 when City Fitness described them in a Motion to Dismiss the Amended Complaint
filed on July 25, 2016. (Doc. No. 23.) They were included in the motion because they were
relevant to another issue being argued by Defendants. Defendants have a privilege to assert
litigation evidence they believe is favorable to them. See infra. In any event, Plaintiff filed the
SAC on August 9, 2017, which is more than one year after the alleged defamatory statements
were published by Defendants in the Motion to Dismiss the Amended Complaint. Accordingly,
even when viewing Plaintiff’s allegation about when the defamation occurred in the light most
favorable to her, the one-year statute of limitations has still run.
Regarding Defendants’ point that Plaintiff’s defamation claim also is barred by the
absolute litigation privilege, this Court agrees.

As the Pennsylvania Supreme Court has

explained, Pennsylvania recognizes an absolute privilege in the context of legal proceedings:
Pennsylvania, like many other jurisdictions, recognizes a judicial privilege
providing immunity for communications which are made in the regular course of
judicial proceedings and are material to the relief sought. The privilege covers
statements by a party, a witness, an attorney, or a judge. Furthermore, the
privilege is absolute, meaning that, where it attaches, the declarant’s intent is
immaterial even if the statement is false and made with malice.
The judicial privilege serves an essential function in guaranteeing access
to the courts and permitting the free articulation and resolution of legal claims.
Schanne v. Addis. 121 A.3d 942, 947 (Pa. 2015) (footnote omitted) (citations omitted).
Therefore, any defamation claim based on communications made during the course of judicial
proceedings is barred.
N. Futility to Amend

37

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 38 of 39

The Court will not grant Plaintiff leave to amend because doing so would be futile.
“When a plaintiff does not seek leave to amend a deficient complaint after a defendant moves to
dismiss it, the court must inform the plaintiff that he has leave to amend . . . unless amendment
would be inequitable or futile.” Grayson v. Mawiew State Hosp.. 293 F.3d 103, 108 (3d Cir.
2002) (emphasis in original). “[A] district court need not grant leave to amend a complaint if the
complaint, as amended, would fail to state a claim upon which relief could be granted.”
Kundratic v. Thomas. 407 F. App’x 625, 630 (3d Cir. 2011) (quoting Shane v. Fauver, 213 F.3d
113,115 (3d Cir. 2000)).
Plaintiff has been given numerous opportunities to correct deficiencies in her Complaints
since she commenced this action in March 2015. After several attempts to amend, she submitted
the SAC, which again fails to state a claim. Further, amendment surely will not cure the defects
in the SAC. This Court has done its best to construe the filings of Plaintiff liberally and in the
light most favorable to her. But Plaintiff’s allegations are nothing more than broad ones in which
numerous causes of action are loosely averred against as many persons as possible. There is no
reason to believe that additional facts could be alleged in a manner that would be sufficient under
Rule 12(b)(6) to support her claims. Therefore, leave to amend would be futile. Accordingly, it
will not be granted.
V.

CONCLUSION
For these reasons, Defendants’ Motions to Dismiss (Doc. Nos. 60-61, 81) will be granted

and the SAC (Doc. No. 58) will be dismissed. An appropriate Order follows.

38

Case 2:15-cv-04964-JHS Document 82 Filed 03/30/18 Page 39 of 39

39

IRtegb04a0/18)af@£@fe4:(Ml/20ig
♦

:

r

ORDER #1

Caseci8el-2^-c\C04®6fe(JKMS0I3(ia2flft6tta8 PfegiiQ48LO/10atg3gfe<S OTOL/2019
Case 2:15-cv-04964-JHS Document 83 Filed 03/30/18 Page 1 of 1
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CARMENCITA MARIA PEDRO,
Plaintiff,

CIVIL ACTION
NO. 15-04964

v.
CITY FITNESS, LLC, el al.,
Defendants.
ORDER

AND NOW, this 30th day of March 2018, upon consideration of the Second Amended
Complaint (SAC) (Doe. No. 58), the Motions to Dismiss the SAC (Doc. Nos. 60-61, 81),
Plaintiff's Response in Opposition (Doc. Nos. 64-65), Defendants’ Reply (Doc. No. 68), and in
accordance with the Court’s Opinion issued this day, it is ORDERED that:
1. Defendants’ Motions to Dismiss the SAC (Doc. Nos. 60-61,81) are GRANTED.
2. The SAC (Doc. No. 58) is DISMISSED.
3. All outstanding motions are DENIED.
4. The Clerk of Court shall close this case for statistical purposes.
BY THE COURT:

1st Joel H. Slomskv. J.
JOEL H. SLOMSKY, J.

Casec^eLZ^-c\«M96^0HS0I3d^2fl4aft88 FW04£L0/lJ8ate«£e<ffi msXLI2019

;

ORDER #2

i

i

CaseCi8d-Z3$-c\BQ4964tedHS023dcaflt5a0fta8 ^|P4^LO/3Saf
Q^L/2019
Case 2:15-cv-04964-JHS Document 85 Filed 04/02/18 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CARMENCITA MARIA PEDRO,
Plaintiffs,
CIVIL ACTION
NO, 15-04964

v.
CITY FITNESS LLCetal.,
Defendants.

ORDER
AND NOW, this 2nd day of April 2018, upon consideration of the letter from pro ge
Plaintiff Carmencita Maria Pedro dated March 30,2018, requesting an extension of time to file a
Response to Defendant Edita Zlatic-Stuckey and Maxwell Stuckey’s Motion to Dismiss (Doc.
No. 81), it is ORDERED that the request is DENIED.1 It is further ORDERED that the Clerk

i

Rule 7.1 of the Local Rules of Civil Procedure for the United States District Court for the
Eastern District of Pennsylvania provides tint any party opposing a motion
shall serve a brief in opposition together ninth such answer or other response
that may be appropriate, within fourteen (14) days after service of the motion
and supporting brief. In the absence of timely response, the motion may be
granted as uncontested except as provided under Fed. R. Civ. P. 56.
Here, Defendant Edita Zlatic-Stuckey and Maxwell Stuckey’s Motion to Dismiss (Doc. No.
81) was filed on March 13,2018. Pursuant to the mandatory 14-day period under Rule 7.1 of
the Local Rules of Civil Procedure, Plaintiff was required to file her response to the Motion
by March 27,2018. She did not file a response within that time frame. Her letter requesting
an extension is dated March 30,2018, three days after the 14-day period expired. The request
is untimely. In addition, on March 30,2018, the Court issued an Opinion and Order granting
all Motions to Dismiss filed in this case. Accordingly, the Court will deny Plaintiff’s request
to file a response.

Case

2019

of Court shall docket the attached letter from gm se Plaintiff CarmencitaMaria Pedro dated
March 30,2018.
BY THE COURT:
fsf Joel H. Slomskv. J.
JOEL H. SLOMSKY, 1.

